                                                                            Office of Inspector General
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Offices of Audit Services



                                                                            Region VII
                                                                            601 East 12th Street
                                                                            Room 284A
NOV202fll
NOV 20 2008
        "   ·i
                                                                            Kansas City, Missouri 64106




Report Number: A-07-08-00282

Mr. Mark Stimpson
Vice President Medicare Northwest
2890 East Cottonwood Parkway
P.O. Box 302'7,Q
Salt Lake City, Utah 84130

Dear Mr. Stimpson:

Enclosed is the U.S. Department of HeaIth and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Postretirement Benefit Costs Claimed for
Medicare Reirpbursement by The Regence Group - Oregon for Fiscal Years 1992 Through
2005." We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.
                 ...   .

Pursuant to the 'principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21 or
through e-m(iilat Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00282
in all correspondence.

                                                     Sincerely,



                                                     Patrick.    gley
                                                     Regional Inspector General
                                                      for Audit Services


Enclosure
Page 2 – Mr. Mark Stimpson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 




 REVIEW OF POSTRETIREMENT
BENEFIT COSTS CLAIMED FOR
MEDICARE REIMBURSEMENT BY
   THE REGENCE GROUP –
  OREGON FOR FISCAL YEARS
    1992 THROUGH 2005




                     Daniel R. Levinson
 

                      Inspector General 


                       November 2008
 

                       A-07-08-00282
 

                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY 


BACKGROUND 


The Regence Group (Regence) administered the Oregon Medicare Part A operations (Oregon)
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective November 30, 2005. Regence also
served as the Common Working File (CWF) Host for the Great Western Sector and Pacific
Sector under separate cost reimbursable contracts until the contracts were terminated on
September 30, 2004. For purposes of this report, we will refer to the Regence – Oregon
Medicare Part A and CWF contracts as Oregon.

In August 1992, Oregon established a Voluntary Employee Benefit Association (VEBA) trust for
the purpose of funding annual accruals for employees who worked on the Oregon Medicare Part
A and CWF contracts. Oregon started claiming accrued postretirement benefit (PRB) costs in
fiscal year (FY) 1992.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by their Medicare contracts.

Following the close of each FY, Oregon submitted a final administrative cost proposal (FACP)
to CMS reporting the administrative costs of performing Medicare functions during the year.
The accrued PRB cost is part of the administrative cost of performing Medicare functions and, as
such, is claimed on each FY’s FACP.

OBJECTIVE

Our objective was to determine the allowability of PRB costs that Oregon claimed for Medicare
reimbursement on an accrual basis for FYs 1992 through 2005.

SUMMARY OF FINDING

Oregon did not claim $59,332 of PRB costs that were allowable for Medicare reimbursement for
FYs 1992 through 2005. Oregon claimed $521,402 of PRB costs for Medicare reimbursement;
however, we determined that the allowable PRB costs were $580,734. This underclaim occurred
primarily because Oregon incorrectly excluded a portion of the contributions used to determine
the allocable PRB costs in 1992, which reduced Oregon’s calculation of the allowable PRB
costs.

RECOMMENDATION

We recommend that Oregon revise its FACPs for FYs 1992 through 2005 to claim the additional
allowable PRB costs of $59,332.




                                               i
AUDITEE COMMENTS

In written comments on our draft report, Oregon agreed with our finding and recommendation.

Oregon’s comments are included in their entirety as Appendix B.




                                              ii
                                                  TABLE OF CONTENTS 


                                                                                                                                   Page


INTRODUCTION....................................................................................................................1 


          BACKGROUND ...........................................................................................................1 

              Oregon and Medicare.........................................................................................1 

              Federal Requirements ........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................1 

               Objective ............................................................................................................1 

               Scope..................................................................................................................2 

               Methodology ......................................................................................................2 


FINDING AND RECOMMENDATION...............................................................................2 


          UNDERCLAIMED POSTRETIREMENT BENEFIT COSTS.....................................2 


          RECOMMENDATION .................................................................................................3 


          AUDITEE COMMENTS...............................................................................................3 


APPENDIXES

     A – THE REGENCE GROUP – OREGON STATEMENT OF ALLOWABLE ACCRUED 

         POSTRETIREMENT BENEFIT COSTS FOR FISCAL YEARS 1992 THROUGH 2005 


     B – AUDITEE COMMENTS




                                                                    iii
            Glossary of Abbreviations and Acronyms

CAS      Cost Accounting Standards
CMS      Centers for Medicare & Medicaid Services
CWF      Common Working File
FACP     final administrative cost proposal
FAR      Federal Acquisition Regulation
FY       fiscal year
PRB      postretirement benefit
SFAS     Statement of Financial Accounting Standards
VEBA     Voluntary Employees Benefit Association
Oregon   The Regence Group – Oregon Medicare Part A and CWF contracts




                               iv
                                      INTRODUCTION
 


BACKGROUND

Oregon and Medicare

The Regence Group (Regence) administered the Oregon Medicare Part A operations (Oregon)
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective November 30, 2005. In addition,
Regence also served as the Common Working File (CWF) Host for the Great Western Sector and
Pacific Sector under separate cost reimbursable contracts until the contracts were terminated on
September 30, 2004. For purposes of this report, we will refer to the Regence – Oregon
Medicare Part A and CWF contracts as Oregon.

In August 1992, Oregon established a Voluntary Employee Benefit Association (VEBA) trust for
the purpose of funding annual accruals for employees who worked on the Oregon Medicare Part
A and CWF contracts. Oregon started claiming accrued postretirement benefit (PRB) costs in
fiscal year (FY) 1992.

Following the close of each FY, Oregon submitted a final administrative cost proposal (FACP)
to CMS reporting the administrative costs of performing Medicare functions during the year.
The accrued PRB cost is part of the administrative cost of performing Medicare functions and, as
such, is claimed on each FY’s FACP.

In claiming PRB costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) and applicable Cost Accounting Standards as required by
their Medicare contracts.

Federal Requirements

CMS reimburses a portion of the funded accruals that contractors charge for their PRB plans.
FAR 31.205-6(o) requires that, to be allowable for Medicare reimbursement, PRB accrual costs
be determined in accordance with Statement of Financial Accounting Standards (SFAS) 106 and
funded in a dedicated trust fund, such as a VEBA trust.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of PRB costs that Oregon claimed for Medicare
reimbursement on an accrual basis for FYs 1992 through 2005.




                                               1

Scope

We reviewed accrued PRB costs that Oregon claimed for Medicare reimbursement on its FACPs
for FYs 1992 through 2005. Achieving the objective did not require that we review Oregon’s
overall internal control structure. However, we did review the internal controls related to the
accrued PRB costs claimed for Medicare reimbursement to ensure that the PRB costs were
allowable pursuant to the FAR.

We performed the audit work in the Region VII field office located in Jefferson City, Missouri.

Methodology

We reviewed applicable Federal requirements. We also identified the amount of accrued PRB
costs claimed on the Oregon FACPs. We determined the extent to which Oregon funded the
PRB costs with contributions to the VEBA trust fund. In performing our review, we used
information provided by Oregon’s actuarial consulting firm. The CMS Office of the Actuary
staff used this information to develop PRB costs for Oregon based on SFAS 106 methodology
applied in accordance with FAR 31.205-6(o). In turn, we verified the actuarial data and used it
to calculate the PRB costs that were allowable for Medicare reimbursement on the FACPs for
FYs 1992 through 2005. Appendix A contains details on the PRB costs and contributions.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                               FINDING AND RECOMMENDATION

UNDERCLAIMED POSTRETIREMENT BENEFIT COSTS

Oregon did not claim $59,332 of PRB costs that were allowable for Medicare reimbursement for
FYs 1992 through 2005. 1

For FYs 1992 through 2001, Oregon claimed $521,402 of PRB costs for Medicare
reimbursement. Oregon correctly calculated and claimed zero PRB costs for Medicare
reimbursement for FYs 2002 through 2005. We calculated the allowable PRB costs based on
total company PRB costs, and we determined that the allowable PRB costs were $580,734.

We compared allowable accrued PRB costs with the accrued PRB costs claimed on Oregon’s
FACPs, as shown in the table below.




1
 Oregon established its VEBA and began claiming accrual costs in calendar year 1992; therefore, FY 1992 only
includes allowable pension costs from January 1, 1992, through September 30, 1992.


                                                       2

                             Accrued PRB Cost Claimed Variance
                       Fiscal Year Per OIG Per Regence Difference
                          1992       $81,757     $19,287    $62,470
                          1993        83,321      82,905        416
                          1994        62,792      61,145      1,647
                          1995        58,742      66,457     (7,715)
                          1996        65,454      70,309     (4,855)
                          1997        52,379      51,224      1,155
                          1998        64,418      61,556      2,862
                          1999        82,311      88,151     (5,840)
                          2000        26,944      20,311      6,633
                          2001         2,616          57      2,559
                          Total     $580,734    $521,402    $59,332

The underclaim occurred primarily because Oregon incorrectly excluded a portion of the
contributions used to determine the allocable PRB costs in 1992, which reduced Oregon’s
calculation of the allowable PRB costs. Therefore, Oregon underclaimed PRB costs by $59,332.

RECOMMENDATION

We recommend that Oregon revise its FACPs for FYs 1992 through 2005 to claim the additional
allowable PRB costs of $59,332.

AUDITEE COMMENTS

In written comments on our draft report, Oregon agreed with our finding and recommendation.
Oregon further clarified in its response that the Oregon Medicare Part A contract was terminated
effective November 30, 2005.

Oregon’s comments are included in their entirety as Appendix B.




                                               3

APPENDIXES
 

                                THE REGENCE GROUP .. OREGON                                   APPENDIX A
                                 STATEMENT OF ALLOWABLE                                         Page t of9
                           ACCRUED POSTRETIREMENT BENEFIT COSTS
                             FOR FISCAL YEARS 1992 THROUGH 2005


                                                    Total          Other        Medicare
                     Description                   Company        Seement       Se2ment

  1992 Contributions                         1L    $2,060,024
 6.500/0 Discount for Interest               2/      (125,729)
1/1/1992 Present Value Contributions         3/     1,934,295
         Prepayment Credit
         Present Value of Funding
                                             4/
                                             5/             °
                                                    1,934,295

         Assigned PRB Cost                   6/     1,949,553
         Absorbed Credit
1/1/1992 CAS Funding Target
                                             7/
                                             8/             °
                                                    1,949,553
         Percentage Funded                   9/        99.220/0
         Funded PRB Cost                     10/    1,934,295
         Allowable Interest                  ill       89,058
         Total Allocable PRB Cost            12/   $2,023,353
         Allocation to Segment               m        100.00%        95.300/0       4.700/0
         Calendar Year Allocable PRB Costs   14/                  1,928,255        95,098
  1992 Fiscal Year PRB Cost                  15/                  1,446,192        71,323
         Medicare LOB* Percentage            16/                      1.410/0      86.040/0
         Allowable PRB cost                  17/      $81,757        20,391        61,366



  1993 Contributions                               $1,549,256
 6.00% Discount for Interest                          (87,694)
1/1/1993 Present Value Contributions                1,461,562
         Prepayment Credit
         Present Value of Funding                           °
                                                    1,461,562

         Assigned PRB Cost                          1,646,789
         Absorbed Credit                                    0
1/1/1993 CAS Funding Target                         1,646,789
         Percentage Funded                             88.75%
         Funded PRB Cost                            1,461,525
         Allowable Interest                            62,115
         Total Allocable PRB Cost                  $1,523,640
         Allocation to Segment                        100.000/0      95.30%         4.700/0
         Calendar Year Allocable PRB Costs                        1,452,029        71,611
  1993 Fiscal Year PRB Cost                                       1,571,086        77,483
         Medicare LOB* Percentage                                     0.920/0      88.88%
         Allowable PRB cost                           $83,321        14,454        68,867
                                     THE REGENCE GROUP - OREGON                               APPENDIX A
                                    STATEMENT OF ALLOWABLE                                      Page 2 of9
                              ACCRUED POSTRETIREMENT BENEFIT COSTS
                                FOR FISCAL YEARS 1992 THROUGH 2005


                                                    Total          Other        Medicare
                       Description                 Company        Seement       Seement

  1994 Contributions                               $1,405,000
 6.00% Discount for Interest                          (79,528)
1/1/1 994 Present Val ue Contri buti ons            1,325,472
          Prepayment Credit                                 0
          Present Value of Funding                  1,325,472

         Assigned PRB Cost                          1,608,629
         Absorbed Credit                                     0
1/1/1994 CAS Funding Target                         1,608,629
         Percentage Funded                             82.40%
         Funded PRB Cost                            1,325,472
         Allowable Interest                            56,333
         Total Allocable PRB Cost                  $1,381,805
         Allocation to Segment                        100.000/0      96.000/0       4.000/0
         Calendar Year Allocable PRB Costs                        1,326,533        55,272
  1994 Fiscal Year PRB Cost                                       1,357,907        59,357
         Medicare LOB* Percentage                                     0.92%        84.74%
         Allowable PRB cost                           $62,792       $12,493       $50,299



  1995 Contributions                               $1,352,133
 6.000/0 Discount for Interest                        (76,536)
1/1/1995 Present Value Contributions                1,275,597
         Prepayment Credit                                  0
         Present Value of Funding                   1,275,597

         Assigned PRB Cost                          1,231,476
         Absorbed Credit                                     0
1/1/1995 CAS Funding Target                         1,231,476
         Percentage Funded                            100.00%
         Funded PRB Cost                            1,231,476
         Allowable Interest                            52,338
         Total Allocable PRB Cost                  $1,283,814
         Allocation to Segment                        100.000/0      95.800/0       4.200/0
         Calendar Year Allocable PRB Costs                        1,229,894        53,920
  1995 Fiscal Year PRB Cost                                       1,254,054        54,258
         Medicare LOB* Percentage                                     0.84%        88.85%
         Allowable PRB cost                           $58,742       $10,534       $48,208
                                  THE REGENCE GROUP - OREGON                               APPENDIX A
                                   STATEMENT OF ALLOWABLE                                    Page 3 of9
                             ACCRUED POSTRETIREMENT BENEFIT COSTS
                               FOR FISCAL YEARS 1992 THROUGH 2005


                                                 Total          Other        Medicare
                      Description               Company        Se2ment       Se2ment

  1996 Contributions                            $1,426,285
 6.000/0 Discount for Interest                     (80,733)
1/1/1 996 Present Val ue Contributions           1,345,552
          Prepayment Credit                         46,768
          Present Val ue of Funding              1,392,320

         Assigned PRB Cost                       1,919,437
         Absorbed Credit                                  0
1/1/1996 CAS Funding Target                      1,919,437
         Percentage Funded                          72.540/0
         Funded PRB Cost                         1,392,320
         Allowable Interest                         57,186
         Total Allocable PRB Cost               $1,449,506
         Allocation to Segment                     100.000/0      96.000/0       4.00%
         Calendar Year Allocable PRB Costs                     1,391,526        57,980
  1996 Fiscal Year PRB Cost                                    1,351,118        56,965
         Medicare LOB* Percentage                                  0.88%        94.030/0
         Allowable PRB cost                        $65,454       $11,890       $53,564



  1997 Contributions                            $1,400,000
 6.000/0 Discount for Interest                     (79,245)
1/1/1997 Present Value Contributions             1,320,755
         Prepayment Credit
         Present Value of Funding                        °
                                                 1,320,755

         Assigned PRB Cost                       2,079,489
         Absorbed Credit
1/1/1997 CAS Funding Target                              °
                                                 2,079,489
         Percentage Funded                          63.510/0
         Funded PRB Cost                         1,320,755
         Allowable Interest                         56,132
         Total Allocable PRB Cost               $1,376,887
         Allocation to Segment                     100.000/0      97.10%         2.90%
         Calendar Year Allocable PRB Costs                     1,336,957        39,930
  1997 Fiscal Year PRB Cost                                    1,350,599        44,442
         Medicare LOB* Percentage                                  0.82%        92.940/0
         Allowable PRB cost                        $52,379       $11,075       $41,304
                                   THE REGENCE GROUP - OREGON                               APPENDIX A
                                    STATEMENT OF ALLOWABLE                                    Page 4 of9
                              ACCRUED POSTRETIREMENT BENEFIT COSTS
                                FOR FISCAL YEARS 1992 THROUGH 2005


                                                  Total          Other        Medicare
                       Description               Company        Se2ment       Se2ment

  1998 Contri butions                            $2,007,541
 6.000/0 Discount for Interest                     (113,634)
1/1/1998 Present Value Contributions              1,893,907
         Prepayment Credit                                0
         Present Value of Funding                 1,893,907

         Assigned PRB Cost                        1,965,258
         Absorbed Credit                                   0
1/1/1998 CAS Funding Target                       1,965,258
         Percentage Funded                           96.370/0
         Funded PRB Cost                          1,893,907
         Allowable Interest                          80,491
         Total Allocable PRB Cost                $1,974,398
         Allocation to Segment                      100.00%        96.50%         3.50%
         Calendar Year Allocable PRB Costs                      1,905,294        69,104
  1998 Fiscal Year PRB Cost                                     1,763,210        61,810
         Medicare LOB* Percentage                                   0.530/0      89.100/0
         Allowable PRB cost                         $64,418        $9,345       $55,073



  1999 Contributions                             $2,117,860
 6.000/0 Discount for Interest                     ( 119,879)
1/1/1 999 Present Val ue Contri butions           1,997,981
          Prepayment Credit                                o
          Present Value of Funding                1,997,981

         Assigned PRB Cost                        1,767,771
         Absorbed Credit                                  o
1/1/1999 CAS Funding Target                       1,767,771
         Percentage Funded                          100.00%
         Funded PRB Cost                          1,767,771
         Allowable Interest                          75,130
         Total Allocable PRB Cost                $1,842,901
         Allocation to Segnlent                     100.000/0      95.80%         4.20%
         Calendar Year Allocable PRB Costs                      1,765,499        77,402
  1999 Fiscal Year PRB Cost                                     1,800,448        75,327
         Medicare LOB* Percentage                                   0.810/0      89.91%
         Allowable PRB cost                         $82,311       $14,584       $67,727
                                  THE REGENCE GROUP-OREGON                                             APPENDIX A
                                   STATEMENT OF ALLOWABLE                                                Page 5 of9
                             ACCRUED POSTRETIREMENT BENEFIT COSTS
                               FOR FISCAL YEARS 1992 THROUGH 2005


                                                   Total             Other            Medicare
                      Description                 Company           Segment           Segment

  2000 Contributions                                        $0
 6.000/0 Discount for Interest                               0
1/1/2000 Present Value Contributions                         0
         Prepayment Credit                             244,023
         Present Value of Funding                      244,023

         Assigned PRB Cost                          823,281
         Absorbed Credit                                   0
1/1/2000 CAS Funding Target                         823,281
         Percentage Funded                           29.640/0
         Funded PRB Cost                            244,023
         Allowable Interest                                0
         Total Allocable PRS Cost                  $244,023
         Allocation to Segment                      100.000/0             95.600/0           4.400/0
         Calendar Year Allocable PRS Costs                               233,286            10,737
  2000 Fiscal Year PRB Cost                                              616,339            27,403
         Medicare LOB* Percentage                                          0.44~/0          88.430/0
         Allowable PRB cost                            $26,944            $2,712           $24,232



  2001     Contributions                                    $0
 6.000/0 Discount for Interest                               0
1II 1200 1 Present Value Contributions                       0
           Prepayment Credit                                 0
           Present Value of Funding                          0

           Assigned PRB Cost                           558,643
           Absorbed Credit                                    0
1II 1200 1 CAS Funding Target                          558,643
           Percentage Funded                             0.000/0
           Funded PRB Cost                                    0
           Allowable Interest                                 0
           Total Allocable PRS Cost                          $0
           Allocation to Segment               W N/A               N/A               N/A
           Calendar Year Allocable PRB Costs                                    0                 0
  2001     Fiscal Year PRB Cost                                           58,321             2,684
           Medicare LOB* Percentage                                        0.37%            89.410/0
           Allowable PRB cost                           $2,616              $216            $2,400
                                   THE REGENCE GROUP - OREGON                                  APPENDIX A
                                    STATEMENT OF ALLOWABLE                                       Page 6 of9
                              ACCRUED POSTRETIREMENT BENEFIT COSTS
                                FOR FISCAL YEARS 1992 THROUGH 2005


                                                  Total           Other         Medicare
                       Description               Company         Segment        Segment

  2002 Contributions                                     $0
 6.000/0 Discount for Interest                            0
1II 12002 Present Value Contributions                     0
          Prepayment Credit                               0
          Present Value of Funding                        0

         Assigned PRB Cost                        1,036,624
         Absorbed Credit                                  0
1/1/2002 CAS Funding Target                       1,036,624
         Percentage Funded                            0.00%
         Funded PRB Cost                                  0
         Allowable Interest                               0
         Total Allocable PRB Cost                        $0
         Allocation to Segment                 N/A              N/A            N/A
         Calendar Year Allocable PRB Costs
  2002 Fiscal Year PRB Cost                                                °               0

         Medicare LOB* Percentage
         Allowable PRB cost                              $0                o               o

  2003    Contributions                                  $0
 6.000/0 Discount for Interest                            0
1II 12003 Present Val ue Contri buti ons                  0
          Prepayment Credit                               0
          Present Value of Funding                        0

          Assigned PRB Cost                       1,333,958
          Absorbed Credit                                  0
1II 12003 CAS Funding Target                      1,333,958
          Percentage Funded                           0.000/0
          Funded PRB Cost                                  0
          Allowable Interest                               0
          Total Allocable PRB Cost                        $0
          Allocation to Segment                N/A              N/A            N/A
          Calendar Year Allocable PRB Costs                                0               0
  2003    Fiscal Year PRB Cost
          Medicare LOB* Percentage
          Allowable PRB cost                             $0                0               0
                                THE REGENCE GROUP-OREGON                                      APPENDIX A
                                 STATEMENT OF ALLOWABLE                                         Page 7 of9
                           ACCRUED POSTRETIREMENT BENEFIT COSTS
                             FOR FISCAL YEARS 1992 THROUGH 2005


                                               Total             Other         Medicare
                     Description              Company           Seement        Segment

  2004 Contributions                                    $0
 4.50% Discount for Interest                             0
1/1/2004 Present Value Contributions                     0
         Prepayment Credit                               0
         Present Value of Funding                        0

         Assigned PRB Cost                         944,845
         Absorbed Credit                                 0
1/1/2004 CAS Funding Target                        944,845
         Percentage Funded                           0.00%
         Funded PRB Cost                                 0
         Allowable Interest                              0
         Total Allocable PRB Cost                       $0
         Allocation to Segment               N/A               N/A            N/A
         Calendar Year Allocable PRB Costs                                0               0
  2004 Fiscal Year PRB Cost
         Medicare LOB* Percentage
         Allowable PRB cost                             $0                o               o

  2005 Contributions                                    $0
 4.500/0 Discount for Interest                           0
1/1/2005 Present Value Contributions                     0
         Prepayment Credit                               0
         Present Value of Funding                        0

         Assigned PRB Cost                         669,297
         Absorbed Credit                                  0
1/1/2005 CAS Funding Target                        669,297
         Percentage Funded                           0.000/0
         Funded PRB Cost                                  0
         Allowable Interest                               0
         Total Allocable PRB Cost                        $0
         Allocation to Segment               N/A               N/A            N/A
         Calendar Year Allocable PRB Costs                                0               0
  2005   Fiscal Year PRB Cost
         Medicare LOB* Percentage
         Allowable PRB cost                             $0                0               0

* Line of business
                                      THE REGENCE GROUP-OREGON                                          APPENDIX A
                                       STATEMENT OF ALLOWABLE                                             Page 8 of9
                                 ACCRUED POSTRETIREMENT BENEFIT COSTS
                                   FOR FISCAL YEARS 1992 THROIJGH 2005


  FOOTNOTES

11 Total contributions to the trust fund are the deposits made to the Voluntary Employee Benefit
  Association (VEBA) trust fund. Such contributions can be used to satisfy the funding
  requirements of Federal Acquisition Regulation (FAR) 31.205-6(0)(2)(iii) and Cost Accounting
  Standards (CAS) 416-50(a)( 1)(v)(A). The contributions included deposits made during the plan
  year and the discounted value of accrued contributions deposited after the end of the plan year but
  within the time allowed for filing tax returns.

21 We subtracted the interest that is included in the contributions deposited after the beginning of
   each plan year to discount the contributions back to their beginning-of-the-year value. For
   purposes of this Appendix, we computed the interest as the difference between the present value
   of contributions at the valuation interest rate and actual contribution amounts. Interest is
   determined using the Statement of Financial Accounting Standards 106 expected long-term rate
   of return.

31 The present value of contributions is the value of the contributions discounted from the date of
  deposit back to the first day of the plan year.

41 A prepayment credit represents the accunlulated value of premature funding from the previous
   year(s). A prepayment credit is created when contributions, plus interest, exceed the end-of-year
   current period funding requirement. A prepayment credit may be carried forward, with interest,
   to the first of each subsequent plan year until needed to fund future postretirement benefit (PRB)
   costs. The accumulated value of prepayment credits is available as of the first day of the plan
   year and is applied as of the first day of the plan year to cover the cost assigned to the period.

51 The present value of funding represents the present value of contributions plus accumulated
  prepayment credits. This is the amount of funding that is available to cover the current period
  funding requirement measured at the first day of each plan year.

6/ The assigned PRB costs, computed on January 1 of each year, provide the basis to compute the
   allowable PRB cost that can be charged to Medicare.

7I Cost credits are created when the PRB cost is a negative value. They are accunlulated at the long-
   term rate, and any accumulated unabsorbed credits are applied to subsequent positive CAS PRB
   costs before any prepayment credits or contributions are applied. Also, because the unabsorbed
   credits are created by assets that have already been recognized for reimbursement, the credit is
   not eligible to be claimed when "absorbed."
                                           THEREGENCEGROUP-OREGON                                             APPENDIX A
                                            STATEMENT OF ALLOWABLE                                              Page 9 of9
                                      ACCRUED POSTRETIREMENT BENEFIT COSTS
                                        FOR FISCAL YEARS 1992 THROUGH 2005

  8/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding
     requirement of FAR 31.205-6(0)(3).

  9/ The percentage of costs funded is a measure of the portion of the CAS funding target that was
     funded during the plan year. Since any funding in excess of the CAS funding target is premature
     funding of future period costs, the funded ratio may not exceed 100 percent. We computed the
     percentage funded as the present value of funding divided by the CAS funding target. For
     purposes of this calculation the percentage of funding has been rounded to seven decimals.

10/ We computed the funded CAS PRB cost as the CAS funding target multiplied by the percent
    funded.

ill     We assumed that interest on the funded PRB cost, less the applied prepayment credit, accrues in
        the same proportion that the interest on contributions bears to the present value of contributions.
        However, we limited the interest in accordance with FAR 31.205-6(0)(4), which provides that
        interest costs are unallowable if caused by a delay in funding beyond 30 days after each quarter of
        the year to which they are assigned.

12/ The total allocable PRB cost is the amount of PRB cost that may be allocated for contract costing
    purposes.

Ui      We obtained the percentage of the Total Company allocable PRB costs attributable to the
        Medicare segment for 1992 -1995 from the actuarial valuation reports provided by Oregon. The
        actuarial valuation report identified the percentage of the Total Conlpany contribution that was
        allocable to Medicare segment enlployees. For years 1996 - 2000, we obtained the Total
        Company allocable PRB costs from accounting records provided by Oregon.

14/ We determined the calendar year (CY) allocable PRB costs by segment by multiplying the total
    allocable PRB costs by the allocation to segment percentage.

l2L     For Federal fiscal year (FY) PRB costs, we converted the plan year allocable PRB costs to a
        Federal FY basis (October 1 through September 30). We calculated the FY PRB costs as 1/4 of
        the prior year's costs plus 3/4 of the current year's costs. FY 1992 allowable PRB costs includes
        only allowable costs from January 1, 1992, to September 30, 1992.

16/ We obtained the Medicare line of business (LOB) percentages from documentation provided by
    Oregon. We did not obtain the Medicare LOB percentage for years in which there were no
    allocable PRB costs.

l1L     We computed the allowable PRB cost by multiplying the FY PRB cost by the Medicare LOB
        percentage.

..ill   Starting with CY 2001, there were no contributions made to the VEBA; therefore, we did not
        obtain the allocation to segnlent percentage.
                                                                                                                                      APPENDIX B



MAILING
MAILING ADDRESS
P. O. Box 30270
                                                                    ~      (iii) Regence
                                                                        . (iil
Salt
Salt Lake City, Utah 84130-0270
                                                                    • ".~. ~ BlueCross BlueShield
                                                                    ....
                                                                                   ofUtah
                                                                                   An Illdependcl1Illccn.'>e9of
                                                                                   Anlndependcnl                 theB'ut:Crossand
                                                                                                   licen:iel' 01 rhe                      ShletdASSOClal10n
                                                                                                                     B1ut:!Cross and Blue ShIeld ASsoCIation


                                                                                   2890 East Cottonwood Parkway
                                                                                   Salt Lake City, Utah 84121-7035
                                                                                   Tel (801) 333-2000
                                                                                   www.ut.regence.com


  November 12, 2008



  Patrick J. Cogley
  Regional Inspector General for Audit Services Region VII
  60 I East 12 th Street
  Kansas City, Missouri 64106

  Dear Mr. Cogley

  RE: Audit Report A-07-08-00282 response

  We have reviewed the referenced draft audit report and include the following written comments for your
  consideration:

  Summary of Findings:
             Find ings:

                                ofPRB
  Oregon did not claim $59,332 of PRB costs that were allowable for Medicare reimbursement for FYs 1992
  through 2005. For FYs 1992 through 2001, Oregon claimed $521,402 ofPRB costs for Medicare
  reimbursement. Oregon correctly calculated and claimed zero PRB costs for Medicare reimbursement for
  FYs 2002 through 2005. We calculated the allowable PRB costs based on total company PRB costs, and we
  determined that the allowable PRB costs were $580,734.

  Recommendation:

  We recommend that Oregon revise its FACPs for FYs 1992 through 2005 to claim the additional allowable
            of$59,332.
  PRB costs of $59,332.

  Regence response:

  We agree with the finding and recommendation of the auditors. We will claim the amount identified in our
  final PRB settlement request to CMS. Regence Blue Cross and Blue Shield of Oregon terminated its
  Medicare Part A contract effective November 30, 2005. No additional corrective action plan will be taken.

  Sincerely,

 .;I(~'
     .//'
 ··;:·~r/·/lV  cf
                /      7-;CC;CC-         . -,....~"



  Mark Stimpson
  Vice President of Medicare
